                                                            Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General
Subject:   INFORMATION: Revised Notification of                       Date:    January 22, 2004
           Audit of the Federal Transit Administration
           New Starts Criteria
           Project Number: 04M3003M000

                                                                    Reply to   JA-40
                                                                    Attn of:
  From:    Debra S. Ritt
           Assistant Inspector General
             for Surface and Maritime Programs

    To:    Federal Transit Administrator

           On November 24, 2003 the Office of Inspector General announced its intent to
           conduct an audit of the Federal Transit Administration’s (FTA) New Starts
           Criteria. The announced objective was to determine whether FTA’s guidance is
           sufficient to ensure that alternative modes and/or alignments analyzed as part of
           the metropolitan planning process support the selection of projects forwarded to
           FTA for proposed New Starts funding.

           In response to a December 8,        2003 request from the Chairman of the
           Subcommittee on Transportation,    Treasury, and Independent Agencies of the
           House Appropriations Committee,    the Office of Inspector General is revising its
           audit notification to expand the    audit scope. In addition to the objective
           originally announced, we will:

           • Determine whether FTA’s processes and criteria for evaluating proposed
             New Starts projects adequately identify those projects that will result in the
             greatest tangible benefits to those who pay for the system.

           • Identify improvements needed in the alternative analyses and evaluation
             processes to ensure transportation projects recommended for New Starts
             funding represent the best local solutions and the best use of taxpayer dollars.
 As discussed at the December 23, 2003 entrance conference with members of
 your staff, we will conduct the review at FTA Headquarters and regional offices
 and at grantees to be determined during the audit. The Program Director for this
 audit is Sarah Batipps, and the Project Managers are Robert Meisenhelder and
 Jim Corcoran. If you have any questions or require additional information,
 please contact me at (202) 493−0331 or Sarah Batipps at (202) 366-8543.

                                           #

cc: Audit Liaison, OST
    Audit Liaison, FTA




                                       2
